Before the Committee on Transportation and Infrastructure
United States House of Representatives

For Release on Delivery
Expected at                  A Grants Management
9:30 a.m. EST
Thursday, December 6, 2012
CC 2013-004
                             Framework and Stakeholder
                             Agreements Are Key to Fully
                             Implementing FRA’s High
                             Speed Intercity Passenger
                             Rail Program

                             Statement of
                             Mitchell Behm
                             Assistant Inspector General for Rail, Maritime
                              and Economic Analysis
                             U.S. Department of Transportation
Chairman and Members of the Committee:

Thank you for inviting me here to discuss the Federal Railroad Administration’s
(FRA) progress in implementing the Nation’s $10.1 billion High Speed Intercity
Passenger Rail (HSIPR) program. Legislation enacted in 2008 dramatically
expanded FRA’s role and responsibilities from primarily providing railroad safety
regulations to overseeing a large grant program. In April 2010, we testified that for
FRA to successfully implement HSIPR, it would need to address several
challenges, including developing written policies and practices to guide the
program’s grant lifecycle process and oversight activities, and obtaining adequate
staff to oversee implementation.

We continue to monitor FRA’s efforts to carry out its traditional and new roles.
While we have seen FRA make noteworthy progress in implementing the HSIPR
program—including establishing certain stakeholder agreements for long-term
projects prior to obligating funds—challenges remain. To date, FRA has awarded
and obligated 99 percent of HSIPR grant funds but has only disbursed about 7
percent due in part to these challenges. My testimony today will focus on FRA’s
(1) progress in establishing a grants management framework and (2) ongoing
challenges in disbursing grant funds.

IN SUMMARY
FRA has made significant progress in establishing a grants management
framework but key components to ensure effective program implementation
remain incomplete. These include finalizing grant administration guidance to help
ensure FRA staff and grantees comply with policies and procedures, establishing
clear program goals and measures to assess HSIPR program progress, and
completing a comprehensive training curriculum to ensure staff appropriately
administer funds across all active grant programs. Completing stakeholder
agreements is also needed for the Agency to disburse obligated funds to project
grantees and ensure intended benefits are achieved by required deadlines.

BACKGROUND
The Passenger Rail Investment and Improvement Act of 2008 1 (PRIIA) directed
FRA to establish a grant program to fund various types of intercity passenger rail
improvements, while it continues to carry out its prior responsibilities, including
its oversight of Amtrak. Four months after PRIIA’s enactment, the American
Recovery and Reinvestment Act of 2009 2 (ARRA) appropriated $8 billion to FRA
to develop and implement the HSIPR grant program. FRA awarded the majority of

1
    P.L. No. 110-432, Div. B.
2
    P.L. No. 111-5.
                                                                                   1
the $8 billion in ARRA funds to two types of HSIPR projects: short-term, “ready-
to-go” projects—almost ready for construction—and long-term projects to develop
high speed rail corridors. ARRA established aggressive timelines for FRA’s
obligations and grantees’ expenditures for both types of projects.

To disburse the funds for HSIPR projects, FRA requires three types of agreements
between the freight railroads, which own the majority of the infrastructure on
which HSIPR grants will be spent, and other stakeholders: (1) service outcome
agreements (SOA), (2) construction agreements, and (3) maintenance agreements.
SOAs outline rail owners’ agreements on services and benefits that will be
provided once projects are completed. For example, SOAs address passenger rail
service frequency, schedule and trip time, and maximum delay minutes. 3
Construction agreements outline stakeholders’ roles and responsibilities for
managing and completing project construction. Maintenance agreements address
stakeholders’ financial and operational responsibilities for maintaining project
property in a state of good repair for at least 20 years.

Our previous audits and testimonies have highlighted FRA’s efforts to develop
written policies and procedures and obtain adequate staff to administer the HSIPR
grant program. In April 2010, we testified that FRA’s expanded role and
responsibilities significantly challenged the Agency to effectively implement the
high speed rail program, improve intercity passenger rail services, and enhance
safety initiatives—challenges that were exacerbated by ARRA’s accelerated
timelines. 4 In September and November 2012, we issued reports on the status of
FRA’s progress in implementing the HSIPR program. Our September report
focused on FRA’s efforts to develop a grants management framework, which is
needed to establish policies, procedures, a workforce structure, performance
measurements, and grant oversight. 5 Our November report focused on FRA’s
efforts to assist in developing stakeholder agreements. 6

FRA HAS MADE PROGRESS IN ESTABLISHING A GRANTS
MANAGEMENT FRAMEWORK, BUT KEY COMPONENTS FOR
EFFECTIVE IMPLEMENTATION ARE INCOMPLETE
FRA completed its Grants Management Manual for HSIPR grant administration,
but it has not developed sufficient guidance for grantees and FRA staff to comply

3
  Delay minutes refer to the average amount of time that a passenger train is delayed on a specified route and the
identified cause of that delay for purposes of determining responsibility.
4
  Federal Railroad Administration Faces Challenges in Carrying Out Expanded Role, April 29, 2010. OIG testimonies
and reports are available on our Web site at http://www.oig.dot.gov/.
5
  Completing a Grants Management Framework Can Enhance FRA’s Administration of the HSIPR Program, Sept. 11,
2012.
6
  FRA’s Requirements for High Speed Rail Stakeholder Agreements Mitigated Risk, but Delayed Some Projects’
Benefits, Nov. 1, 2012.
                                                                                                                2
with the policies and procedures set forth in the manual. At the same time, FRA
has yet to develop clear goals, measures, and other mechanisms for assessing
program and grantee performance. While FRA has almost met its staffing
requirements, it continues to work on developing a comprehensive training
program that incorporates HSIPR policies and procedures.

FRA Lacks Sufficient Guidance To Ensure Staff and Grantees Comply
With HSIPR Grant Administration Policies and Procedures
FRA began drafting its Grants Management Manual, which sets forth the policies
and procedures for HSIPR grant management, in April 2010 and released the
completed manual in April 2012—almost 3 years after it assumed responsibility
for administering HSIPR funds. During this period, the Agency obligated nearly
$9.6 billion of HSIPR funds to comply with ARRA timeframes. FRA officials told
us that due to staff constraints they needed to prioritize HSIPR grant awards and
obligations over the manual’s completion.

The manual includes chapters on grant solicitation, administration, oversight, and
closeout. The manual also provides some guidance on how to manage HSIPR
grants. However, according to FRA staff we surveyed, additional guidance is
needed to help ensure compliance with policies and procedures (see Figure 1).
Figure 1. FRA Regional and Grant Managers Responses to Selected Survey Questions

Do you currently
             Do youhave  sufficient
                    currently        resources
                              have sufficient        to allow
                                              resources to allowyou  toexecute
                                                                 you to
execute all duties requiredallofduties
                                  you required
                                        as a regional
                                                  of you asmanager?
                                                           a regional manager?

Do you currently have sufficient resources to allow you to
execute all duties
             Do yourequired    of you
                    currently have       as aresources
                                   sufficient  grant manager?
                                                       to allow you to execute
                                    all duties required of you as a grant manager?
Could FRA provide you with more guidance to better assist
you in successfully    executing
               Could FRA  provide youallwith
                                         duties
                                             morerequired
                                                  guidance toofbetter
                                                                  youassist
                                                                       as ayou in
regional manager?
         successfully executing all duties required of you as a regional manager?

Has FRA provided you with guidance to assist you in
              Has FRA provided you with guidance to assist you in successfully
successfully executing all duties required of you as a regional
                   executing all duties required of you as a regional manager?
manager?

Has FRA provided    you
              Has FRA    with guidance
                      provided                to assist
                               you with guidance           you
                                                    to assist youinin successfully
successfully executing   all duties
                      executing        required
                                all duties requiredofof you
                                                        you asasa grant
                                                                   a grant
                                                                        manager?
manager?
                                                                                     0   1   2       3       4         5        6   7   8


                                                                                                 Number of Survey Respondents
Source: OIG Survey                                                                                          NO   YES


Several FRA grant managers told us that grantees have had trouble completing
required grant documentation correctly and in a timely manner due to the lack of

                                                                                                                                            3
detailed guidance. For example, seven regional managers informed us that
grantees could use more guidance on the Agency’s requirements for grant
obligation, such as project scope, schedule, and budget, as well as general grant
management practices. Nine of 12 grantees we interviewed also indicated that
FRA could have provided more guidance to help them develop the required
application documentation. For example, one grantee stated that due to a lack of
detailed guidance, his State had to draft 10 iterations of a statement of work 7 in
order to meet FRA’s application requirements. A template could have minimized
this type of rework. While FRA provides general grant application guidance to
HSIPR grantees through its Notice of Funding Availability 8 announcements and
Webinars on the application process, the guidance does not explain how to
navigate the complex grant lifecycle process, which could result in inefficiencies,
mismanagement, and project delays.

FRA acknowledged that additional clarification is needed and established
workgroups to develop this guidance, but it did not establish timelines for
completion for all workgroups.

FRA Continues To Lack Effective Mechanisms for Assessing
Program and Grantee Performance
Between April 2009 and February 2012, FRA issued 10 documents containing
strategic and performance goals for assessing HSIPR program progress. However,
some are inconsistent across these documents, and these inconsistencies cannot be
reconciled. For example, several goals in DOT’s assessment of FRA’s
performance and performance plans appear to support a goal in FRA’s fiscal year
2013 budget request to improve rail transportation experience. However, the
relationship among the goals is not clear (see Table 1). Such inconsistencies make
it difficult for grant managers and decision makers, including Congress, to know
what goals the program is to achieve.




7
  A statement of work describes the programmatic aspects of a grant project, including the project itself, a work
schedule, deliverables, and any stipulations that require a grantee to complete and submit environmental
documentation.
8
  A Notice of Funding Availability formally announces the availability of Federal funding and solicits grantee
applications.
                                                                                                               4
Table 1. Example of Goals Across FRA Planning Documents
           FRA’s fiscal year 2013            DOT’s assessment of FRA’s DOT performance plans
           budget request                    performance
Goal(s)    Improve rail transportation       • Improve employment,             • Decrease fuel
           experience                          safety, livability, and travel    consumption
                                               time                            • Increase HSIPR
                                             • Improve ridership, reliability,   ridership
                                               and market share for rail
                                               passenger service


Moreover, the goals’ performance measures are not specific enough to determine
overall program progress. For example, the goal to improve reliability, speed, and
frequency of rail passenger service, which appears on FRA’s Web site, does not
include measures that indicate progress, such as anticipated trip time
improvements, additional trains, and ridership gains. Some goals that are critical to
measuring progress are simply missing. Notably, FRA does not have a goal to
determine the extent to which HSIPR is achieving its intended results.

FRA mechanisms for assessing grantee performance are similarly lacking.
Specifically, FRA lacks an effective tool to help staff track, manage, and monitor
grantee compliance with documentation requirements, including Federal Financial
Reports and various ARRA requirements for reporting and certification. In
January 2012 we reviewed FRA’s tracking tool, which at the time only captured
the date a deliverable was received, not the number of days it is overdue—key
information for determining the severity of noncompliance. According to FRA
officials, a more comprehensive project management tool to track and monitor
grantees is under development.

FRA also completed its monitoring plan in March 2012. According to FRA
officials, the plan includes information on monitoring timeframes, responsibilities
for monitoring personnel, and other components to ensure monitoring activities
will be completed—which its interim plan did not include. We have yet to assess
the completed plan but will do so in the future.

FRA Lacks a Comprehensive Training Program for Its HSIPR Staff
FRA has not ensured its staff can effectively administer HSIPR grant funds across
all its active programs. The Agency updated its workforce plan based on the 51
positions Congress authorized for the division responsible for HSIPR oversight.
According to FRA officials, 91 percent of these positions have been filled,
including those that the agency previously had difficulty filling. 9


9
  In March 2012, FRA officials cited difficulty in hiring candidates with appropriate expertise to fill specialized
positions, such as grant managers.
                                                                                                                 5
However, the Agency continues to lack a comprehensive training curriculum—due
in part to delays in developing its Grants Management Manual. According to FRA
officials, in lieu of a curriculum centered around the policies and procedures set
forth in the manual, HSIPR personnel have been required to attend Agency-
provided training sessions on certain topics, such as grant monitoring and
applicant outreach. Officials also stated that grant managers and other personnel
have access to external training opportunities. However, FRA does not require
personnel to complete fraud awareness training to help staff recognize common
fraud schemes, such as conflicts of interest or false statements, claims, and
certifications. Historically, large-scale grant projects such as those under the
HSIPR program have been particularly vulnerable to these types of fraud.

With the recently completed Grants Management Manual, we recommended in
our September 2012 report that FRA develop a comprehensive grants management
training curriculum for HSIPR staff that includes a required fraud training
component. FRA concurred with our recommendation and stated that the
curriculum would be completed by December 2012.

SOME AGREEMENTS FOR LONG- AND SHORT-TERM
PROJECTS ARE NOT COMPLETE, DELAYING DISBURSEMENT
OF FUNDS
Prior to obligating funds on long-term projects, FRA ensured project grantees
completed SOAs with their freight partners. While this action helped mitigate
certain risks, completing the SOAs required significant FRA involvement and time
and impacted FRA’s ability to review and approve stakeholder agreements for
other long- and short-term projects—which, in turn, delayed finalizing these
agreements and the disbursement of funds.

FRA worked with stakeholders on the 13 long-term corridor projects to develop
SOAs and, as of September 2011, had obligated $3.2 billion in ARRA funds to
these projects. However, project stakeholders found the SOA process challenging,
in part because FRA’s guidance provides little detail on how to structure
stakeholder agreements. Ultimately, the process led to repeated rejections of
multiple versions of agreements, which resulted in FRA intensifying its assistance
to grantees.

This focus on the SOAs delayed FRA’s review and approval of stakeholder
maintenance and construction agreements, which PRIIA requires prior to fund
disbursement. While FRA obligated all of the funds within the ARRA-mandated
deadline, the agency is still working with State grantees and other project
stakeholders to complete maintenance and construction agreements. The deadline
for expending ARRA funds and completing construction is September 30, 2017—
                                                                                6
a compressed timeline for complex projects such as creating a new rail corridor or
expanding or reconfiguring an existing one. For example, an external peer review
questioned California’s ability to meet ARRA’s 2017 deadline, even though
California has all required project stakeholder agreements in place. 10 For projects
with maintenance and construction agreements that remain outstanding, the
timeline for completion becomes even more compressed.

Short-term projects—and the economic recovery benefits these projects were
intended to stimulate—have also been delayed. FRA originally established a
deadline of September 30, 2010, to complete short-term project obligations but did
not complete obligating funds to these projects until September 2011. According
to FRA officials, stakeholder agreement requirements for short-term projects were
completed on a case-by-case basis instead of publishing guidance that would
provide common instruction on how to complete these agreements. Grantees of
short-term projects reported that without written guidance, they had difficulties
understanding FRA’s expectations regarding the terms for their project
stakeholder agreements. Short-term project stakeholders also noted that delays in
obligating funds impacted their ability to plan and begin construction on their
projects.

In closing, finalizing grant administration guidance, establishing clear program
goals and measures, and completing a comprehensive training curriculum—all
actions we have recommended—would better position FRA to effectively carry
out the responsibilities of its expanded role, ensure the timely implementation of
HSIPR, and spur continued interest in high speed rail. We will continue
monitoring FRA’s progress in these areas, as well other areas we identify as
critical to ensuring FRA’s successful implementation of HSIPR.

Mr. Chairman, this concludes my prepared statement. I am happy to answer any
questions you may have at this time.




10
     California High-Speed Rail Peer Review Group Report to California State Legislature, Jan. 3, 2012.
                                                                                                          7
